                                                    AUDIT




              U.S. Fish and Wildlife Service
                 Sport Fish Restoration
            Program Grants Awarded to the
               Commonwealth of Virginia,
        Virginia Marine Resources Commission,
        From July 1, 2007, Through June 30, 2009




Report No.: R-GR-FWS-0008-2010                     June 2010
                 OFFICE OF
                 INSPECTOR GENERAL
                 U.S. DEPARTMENT OF THE INTERIOR


                                                                                         June 7, 2010

                                         AUDIT REPORT
Memorandum

To:         Director
            U.S. Fish and Wildlife Service

From:       Suzanna I. Park
            Director of External Audits

Subject:    Audit on U.S. Fish and Wildlife Service Sport Fish Restoration Program Grants
            Awarded to the Commonwealth of Virginia, Virginia Marine Resources Commission,
            From July 1, 2007, Through June 30, 2009 (No. R-GR-FWS-0008-2010)

        This report presents the results of our audit of costs claimed by the Commonwealth of
Virginia (the Commonwealth), Virginia Marine Resources Commission (the Commission), under
grants awarded by the U.S. Fish and Wildlife Service (FWS). FWS provided the grants to the
State under the Sport Fish Restoration Program (the Program). The audit included claims totaling
approximately $6 million on 21 grants that were open during Commonwealth fiscal years
(CFYs) ended June 30 of 2008 and 2009 (see Appendix 1). The audit also covered the
Commission’s compliance with applicable laws, regulations, and FWS guidelines, including
those related to the collection and use of fishing license revenues and the reporting of program
income.

        We found that the Commission complied, in general, with applicable grant accounting
and regulatory requirements. We did not identify any reportable conditions. We therefore do not
require a response to this audit report.

       If you have any questions regarding this report, please contact the audit team leader,
Chris Krasowski, or me at 703–487–5345.

cc:     Regional Director, Region 5, U.S. Fish and Wildlife Service




                           Office of Audits, Inspections, and Evaluations | Reston, VA
                                         Introduction
Background
The Dingell-Johnson Sport Fish Restoration Act (Act) 1 established the Sport Fish Restoration
Program. Under the Program, FWS provides grants to States to restore, conserve, manage, and
enhance their sport fish resources. The Act and Federal regulations contain provisions and
principles on eligible costs and allow FWS to reimburse States up to 75 percent of the eligible
costs incurred under the grants. The Act also requires that fishing license revenues be used for
the administration of the State’s fish agency. Finally, Federal regulations and FWS guidance
require States to account for any income they earn using grant funds.

Objectives
Our audit objectives were to determine if the Commission:

       •   Claimed the costs incurred under the Program grants in accordance with the Acts and
           related regulations, FWS guidelines, and the grant agreements.
       •   Used the Commonwealth’s fishing license revenues solely for fish program activities.
       •   Reported and used program income in accordance with Federal regulations.

Scope

Audit work included claims totaling approximately $6 million on the 21 grants that were open
during CFYs ended June 30, 2008 and 2009 (see Appendix 1). We report only on those
conditions that existed during this audit period. We performed our audit at Commission’s offices
in Newport News, VA, and visited at the main campus of the Virginia Institute of Marine
Sciences in Gloucester Point, VA; Old Dominion University Research Foundation in Norfolk,
VA; and two piers (see Appendix 2). We performed this audit to supplement, not replace, the
audits required by the Single Audit Act Amendments of 1996 and by Office of Management and
Budget Circular A-133.

Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted auditing procedures
as necessary under the circumstances. We believe that the evidence obtained from our tests and
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

1
    16 U.S.C. § 777, as amended.




                                                  2
Our tests and procedures included:

   •   Examining the evidence that supports selected expenditures charged to the grants by the
       Commission.
   •   Reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       in-kind contributions, and program income.
   •   Interviewing Commission employees to ensure that personnel costs charged to the grants
       were supportable.
   •   Conducting site visits to inspect equipment and other property.
   •   Determining whether the Commission used fishing license revenues solely for
       administration of the Commission.
   •   Determining whether the State passed required legislation assenting to the provisions of
       the acts.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in these systems for testing. We did not project the results of the tests to the
total population of recorded transactions or evaluate the economy, efficiency, or effectiveness of
the Commission’s operations.

Prior Audit Coverage
On April 28 2006, we issued “Final Audit Report on the U.S. Fish and Wildlife Service Federal
Assistance Grants Administered by the Commonwealth of Virginia, Virginia Marine Resources
Commission from July 1, 2003 through June 30, 2005” (No.R-GR-FWS-0022-2005). The report
contained one recommendation, which we determined had been resolved and implemented. In
addition, we reviewed the Commonwealth’s Single Audit Reports and Comprehensive Annual
Financial Reports for CFYs 2008 and 2009. We determined that there were no specific findings
related to the Sportfish Restoration Program.




                                                  3
                                  Results of Audit
Audit Summary
We found that the Commission complied, in general, with applicable grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance. The report contains no reportable
findings or recommendations, and no further action is necessary.
            .




                                              4
                                           Appendix 1



 VIRGINIA MARINE RESOURCES COMMISSION
 FINANCIAL SUMMARY OF REVIEW COVERAGE
    JULY 1, 2007, THROUGH JUNE 30, 2009


                 Grant
Grant Number                Claimed Cost
                Amount
F-87-R-21       $146,864            $0
F-87-R-20        161,361       161,032
F-87-R-19        152,723       154,485
F-77-R-21        447,099       457,085
F-77-R-20        408,085       406,938
F-77-R-22        462,449       476,111
F-130-R-5        549,485        39,580
F-130-R-4        565,701       562,617
F-130-R-3        427,507       427,128
F-126-R-6        449,753       403,365
F-126-R-5        421,338       384,324
F-126-R-4        313,743       293,229
F-116-R-12       394,300       268,107
F-116-R-11       377,557       376,259
F-116-R-10       407,883       407,883
F-114-C-15        26,103        34,960
F-114-C-14        24,418        22,927
F-114-C-13        25,149        32,323
F-104-R-14        604,329             0
F-104-R-13        606,421       605,629
F-104-R-12        416,640       495,963
   Total       $7,388,908    $6,009,945




                     5
                                                                   Appendix 2


        VIRGINIA MARINE RESOURCES COMMISSION
                    SITES VISITED
                           Headquarters
                           Newport News


                              Universities
            Old Dominion University Research Foundation
Virginia Institute of Marine Science, The College of William and Mary

                            Fishing Piers
                      Bill Harbert Ocean View
                   King-Lincoln Park Wavescreen




                                 6
      Report Fraud, Waste,
      and Mismanagement
             Fraud, waste, and mismanagement in
            government concern everyone: Office
           of Inspector General staff, Departmental
            employees, and the general public. We
               actively solicit allegations of any
           inefficient and wasteful practices, fraud,
                and mismanagement related to
            Departmental or Insular Area programs
                and operations. You can report
               allegations to us in several ways.



By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    Mail Stop 4428 MIB
                    1849 C Street, NW
                    Washington, D.C. 20240


By Phone:           24-Hour Toll Free                   800-424-5081
                    Washington Metro Area               703-487-5435


By Fax:             703-487-5402


By Internet:        www.doioig.gov
